No. 20-

 

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

 

TATIANA REITER, an Individual, and WYECZESLAV RAYTER, an Individual,
Petitioners,
vw
STATE OF NEW JERSEY,
Respondent.

 

On Petition for Certification to the Supreme Court of New Jersey

 

CERTIFICATE OF SERVICE

 

I hereby certify that on September 30, 2020 I placed in the USPS with
sufficient postage thereon, copies of the Petition for a Writ of Certiorari and Appendix
addressed to the Clerk of the Supreme Court of the United States, 1 First Street,
N.E., Washington, DC 20543; I also certify that on September 30, 2020 I submitted
electronic copies of the Petition for a Writ of Certiorari and Appendix to the Supreme
Court of the United States: I further certify that three (3) copies of the Petition for a
Writ of Certiorari and Appendix were hand delivered to M. Murphy Durkin, Esq.,
Durkin & Durkin LLC, 1120 Bloomfield Avenue, Suite 204, P.O. Box 1289, West
Caldwell, NJ 07006, counsel for Respondent along with electronic copies emailed to
mdurkinlawfirm.com (email for M. Murphy Durkin, Esq); phone number! (973) 244-
9969.

Thereby certify that the foregoing statements made by me are true. lam aware
that if any of the foregoing statements made by me are willfully false, I am subject to
punishment.
Respectfully Submitted,

  
    

Dated: September 30, 2020

 
 

a
wv John M. Mills II
ao Counsel of Record
a Attorney ID: 010411976
Mills & Mills P.C.
Ce One Western Avenue
Morristown, NJ 07960

Counsel for Petitioners
Tatiana Reiter and Wyeczeslav Rayter
